<html>
<title> - PENDING PUBLIC HEALTH LEGISLATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   PENDING PUBLIC HEALTH LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2010

                               __________

                           Serial No. 111-154


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-131                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1473647b54776167607c7178643a777b793a">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MARY BONO MACK, California
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   JOHN SULLIVAN, Oklahoma
JANE HARMAN, California              TIM MURPHY, Pennsylvania
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     1
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     3
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     4
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................     5
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     5
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    55
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    56

                               Witnesses

Lawrence Tabak, Principal Deputy Director, National Institutes of 
  Health (NIH), U.S. Department of Health and Human Services.....     7
    Prepared statement...........................................     9
Ileana Arias, Principal Deputy Director, Centers for Disease 
  Control and Prevention (CDC), U.S. Department of Health and 
  Human Services.................................................    17
    Prepared statement...........................................    20
Marcia Brand, Deputy Administrator, Health Resources and Services 
  Administration (HRSA), U.S. Department of Health and Human 
  Services.......................................................    29
    Prepared statement...........................................    31

                           Submitted material

Committee memorandum.............................................    61


                   PENDING PUBLIC HEALTH LEGISLATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2010

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 4:02 p.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Frank 
Pallone, Jr. [Chairman of the Subcommittee] presiding.
    Members present: Representatives Pallone, Engel, Green, 
DeGette, Capps, Schakowsky, Baldwin, Barrow, Space, Matsui, 
Shimkus, Pitts, and Burgess.
    Staff present: Ruth Katz, Chief Public Health Counsel; 
Sarah Despres, Counsel; Purvee Kempf, Counsel; Naomi Seiler, 
Counsel; Katie Campbell, Professional Staff Member; Stephen 
Cha, Professional Staff Member; Emily Gibbons, Professional 
Staff Member; Virgil Miller, Professional Staff Member; Anne 
Morris, Professional Staff Member; Alvin Banks, Special 
Assistant; Clay Alspach, Minority Counsel, Health; and Ryan 
Long, Minority Chief Counsel, Health.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I call the meeting of the House subcommittee 
to order, and today we are having a hearing on a number of 
public health bills that are priorities of our committee 
members, so I will recognize myself for an opening statement.
    Given that this is the second hearing of the day, I am 
going to keep my remarks very brief so we can hear from the 
witnesses from the Department of Health and Human Services. I 
do want to express my gratitude to HHS, not only for providing 
helpful feedback and comments on the bills we plan to consider 
this week, but also for their flexibility with this hearing. 
The hearing was originally scheduled for yesterday, but the 
witnesses for HHS agreed to testify today, late in the day, to 
accommodate members' schedules. We truly appreciate your true 
commitment to be accessible and available to the Energy and 
Commerce Committee, and look forward to your testimony.
    The legislation that you--that Health and Human Services 
will be commenting on today encompasses a broad number of 
public health priorities that will strengthen and enhance 
research-related pediatrics, heart diseases, multiple 
sclerosis, scleroderma, bone marrow failure, and cancer. 
Research and treatment is informed by strong data, and so HHS 
will also comment today on legislation to improve the 
collection of data for health disparities.
    Finally, we will hear from the Department on the critical 
services that public health veterinarians provide in our 
communities to protect the public health. Congresswoman Tammy 
Baldwin and I have worked together on legislation to promote an 
adequate supply of public health veterinarians who work in 
subject areas that have an impact on human health by assuring 
access to grants and loans.
    I am pleased that our staff and the minority are finalizing 
consensus language on this shared goal. I would like to ask 
unanimous consent to enter into the record a letter from the 
Association of American Veterinary Medical Colleges, and the 
American Veterinary Medical Association on the revised version 
of H.R. 2999.
    Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    [The Committee memorandum follows:]
    Mr. Pallone. And I will yield to our ranking member, Mr. 
Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. As I promised this 
morning, we would also just put on the record that we 
appreciate the folks from Health and Human Services showing up. 
We are still anxiously awaiting the presence of the secretary 
to help us discern her intentions on the healthcare law. It has 
been a long time since it has now been passed into the law, and 
she is involved in the administration of that. Numerous 
letters--and we would like to at least start addressing some of 
those issues, especially those that we know need to be fixed. 
We know there are provisions that need to be fixed. There are 
bipartisan discussions on both sides, and we should be about 
that business.
    But since that is not going to happen anytime soon, I want 
to thank you for also moving this to a time when members have 
no excuse for not being here. So if they are not here, they are 
absent. Fly-in days are a different position by most members, 
especially in this environment. At least now we can hold them 
accountable for not showing, because we all should be here. 
Again, I thank you for changing your schedule.
    We have been working hard on this whole list of 20 or so 
bills, and we are making great headway in trying to move these 
expeditiously. I am just going to lay out some of the general 
concerns.
    Spending in our national government is a primary concern of 
the population out there, I mean, at least in my district, and 
I think it is safe to say across the country. You can't spend 
money, theoretically, by the civics books if you don't 
authorize. Anytime you increase authorizations, you increase 
the ability to spend more money. So having said that, the 
compelling arguments increasing authorizations better be 
compelling. I hope to move, eventually, to a time when instead 
of having offsets, we move to auth-sets where we take an 
authorization and we remove one that doesn't really hold water 
or isn't applicable anymore. That would be a good signal to the 
public that we are not only trying to move government spending 
where it should go, but we are also recognizing the fact that 
we probably authorize spending and spend money in inappropriate 
ways.
    What some of the negotiations are is looking at 
authorization levels and inflationary adjustments, and I 
think--in those areas I think we can get to some agreement. 
Some bills talk about additional granting to states. That is 
going to be a problem in this environment, getting Republican 
support for additional spending.
    I will end, there is also some that tread very close to 
abortion discussions and high amendment issues. We would think 
that that would not be helpful in moving bipartisan bills to 
the floor.
    With that, Mr. Chairman, I will stop and I will yield back 
my time.
    Mr. Pallone. Thank you, Mr. Shimkus. We have some other 
members here. Mr.--the gentleman from Georgia, Mr. Barrow, was 
here first.
    Mr. Barrow. I thank the chairman. As Mr. Shimkus says, I 
have no excuse not to be here, but I have nothing to add to 
what has been said to set the table for our discussion here 
today, so I will waive an opening. Thank you.
    Mr. Pallone. Thank you. And we have Mr. Green from Texas.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and I have to admit, I 
wasn't listening to my colleague from Illinois. I was actually 
outside, and I am glad I am here and present.
    I want to thank you for holding the hearing today on 
several pieces of healthcare legislation pending before the 
committee. I am a strong supporter and cosponsor of many of the 
bills, and I am glad we are moving these bills to the 
legislative process.
    I don't want to take too much time, but I do want to point 
out one piece of legislation we will be discussing today. I 
have been working with Representative Hank Johnson on H.R. 
5986, the Neglected Infections of Impoverished Americans Act of 
2010 since we were marking up the health reform bill, and I 
included this legislation as an amendment. Recently Chairman 
Waxman and Representative Gingrey signed on the legislation as 
original cosponsors, and I would like to thank them for their 
efforts on the issue.
    H.R. 5986 would require HHS to submit a report to Congress 
on the current state of parasitic diseases that have been 
overlooked among the poorest Americans. The 2008 study by 
George Washington University and the Saving Vaccine Institute 
identified high prevalence rates of parasitic infections in the 
poorest areas of the United States and along our border 
regions. Scientists estimate there may be as many as 100 
million infections and neglected diseases identified in our 
legislation, including chigas, cystic cirrhosis, toxicaras--
anyway, there are a whole bunch of them, and I would ask for 
the full statement to be placed into the record.
    These diseases and other neglected diseases of poverty 
collectively infect over 1.7 billion people around the world, 
but they disproportionately affect minority and impoverished 
populations across the United States, producing effects ranging 
from asymptomatic infection to asthma-like symptoms, seizures, 
and death. This study is especially important, because these 
neglected diseases receive less financial support than they 
deserve. A mere $231,730 of research funding was allocated by 
the NIH since 1995.
    Discrepancy in funding is known as the 10/90 gap. A mere 10 
percent of the global health research dollars is directed 
towards diseases affecting 90 percent of the global population. 
The Neglected Infections of Impoverished Americans Act of 2010 
would provide an update evaluation of the current dearth of the 
knowledge regarding epidemiology in these diseases and the 
socioeconomic health and development impact they have on our 
society.
    I want to thank our witnesses for appearing today, and I 
would like to submit two letters of support for H.R. 5986 for 
the record. One letter is from the University of Georgia and 
the other is from the University of South Alabama. Again, thank 
you, Mr. Chairman. I yield back my time.
    Mr. Pallone. Without objection, so ordered on the two 
letters.
    [The information was unavailable at the time of printing.]
    Mr. Pallone. Next is our subcommittee vice chair, Ms. 
Capps.
    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing. I would like also to ask unanimous consent to enter 
two letters in the record, one in support of H.R. 1032, and the 
other in support of H.R. 2941.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. So I am cosponsor of many of the bills before 
us today, and I urge us to act swiftly to pass them out of 
committee. I want to specifically thank you for including two 
bills that I have sponsored on the agenda.
    The first is H.R. 1032, the HEART for Women Act, which I am 
proud to say has broad bipartisan support, including every 
single Republican and Democratic woman on this committee. It 
focuses on expanding CDC's WISE WOMAN program, which has been 
proven so effective in ensuring that FDA is evaluating all new 
drug and device applications for how they affect women and men 
differently.
    Working closely with the majority and the minority 
committee staffs, I feel confident that we have solid changes 
to this legislation that should make it sort of a no-brainer 
for unanimous passage.
    The other bill is H.R. 2408, the Scleroderma Research and 
Awareness Act, which also has strong bipartisan support and has 
been modified to address concerns of the minority and majority 
alike. H.R. 2408 would promote further NIH research into this 
debilitating disease and promote public awareness of 
scleroderma through the CDC.
    Thank you again for considering these bills in today's 
hearing. I look forward to passing them out of committee, and 
ultimately the House. If you wouldn't mind an additional 
statement, because unfortunately Congresswoman Eshoo had a 
family emergency, and I would like to voice my support for her 
legislation, H.R. 211, with the strong support of United Way 
and 251 bipartisan cosponsors, the calling for 211 act builds 
on existing state and local efforts to connect people with 
services and volunteer opportunities. The legislation provides 
federal matching grants augmenting existing funding from state 
and local governments, nonprofits, and the business community. 
With this bill, 211 will finally become a truly national 
system.
    I yield back.
    Mr. Pallone. Without objection, so ordered. And all members 
of the subcommittee's statements who desire to enter them into 
the record will be entered in the record without further--
without any objection.
    The gentlewoman from Wisconsin, Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman. I have two bills 
before the committee today, and both are deeply important to me 
and many others. I am delighted that the committee is 
considering them.
    H.R. 2999, the Veterinary Public Health Workforce and 
Education Act, represents a comprehensive solution to ensuring 
that the veterinary public health workforce can meet vital 
public health challenges. We worked across the aisle to draft a 
manager's amendment that will serve as a good first step, and 
help attract and retain more veterinarians into public health 
careers. I thank you, Mr. Chairman, for your support in this 
effort, as well and my friend and colleague from Pennsylvania, 
Mr. Murphy, who is a key leader in this legislation.
    Second, the Health Data Collection Improvement Act would 
authorize HHS to collect, where practical and appropriate, 
information on sexual orientation and gender identity for 
participants in health programs and health surveys. This is an 
issue that I have brought to this committee's attention a 
number of times over the past few years. Currently, no federal 
health survey or federal health program collects data on sexual 
orientation or gender identity. As a result, we are left with 
gaping holes in our knowledge base on LGBT health. The federal 
government must have basic information on the health of all 
Americans in order to help address these issues, especially for 
those who may face discrimination and stigma in the healthcare 
system and outside the healthcare system.
    Again, thank you, Mr. Chairman, for considering these 
bills. I look forward to hearing from our witnesses today. I 
yield back.
    Mr. Pallone. Thank you. The gentleman from--the gentlelady 
from Illinois, Ms. Schakowsky, care to make an opening 
statement?

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Yes. Thank you, Mr. Chairman. I am in 
support of all of these bills, but I wanted to highlight H.R. 
1210, the Arthritis Prevention, Control, and Cure Act, and 
thank its sponsor, Representative Eshoo, who couldn't be here 
today, for her leadership. She is attending a family funeral.
    Forty-six point three million Americans, including 300,000 
children, are living with this painful disease. Arthritis is 
the number one cause of disability in the United States, and 
costs our economy $130 billion a year. I am cosponsor of H.R. 
1210 because it helps address those problems, it includes 
competitive grants to support the prevention, control, and 
surveillance of arthritis, and gives NIH the authority to 
expand research activity surrounding juvenile arthritis.
    I look forward to hearing from our witnesses today, and to 
consideration and passage, we hope, of the Arthritis 
Prevention, Control, and Cure Act tomorrow.
    I yield back.
    Mr. Pallone. Thank you. Gentleman from Ohio, Mr. Space.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thank you, Mr. Chairman. I appreciate your 
efforts in holding this hearing on a number of important bills.
    Today, our subcommittee is taking into consideration a 
number of bills focused on improving public health efforts in 
our Nation, and addressing public health is no simple task 
right now. Childhood obesity rates are on the rise, diabetes is 
rapidly becoming epidemic. Long story short, there are a number 
of disturbing trends out there that give all of us significant 
concerns about the future of our healthcare system.
    That is why I am extremely pleased that Chairman Pallone 
has offered us today's hearing as an opportunity to look at one 
of the bills that I have sponsored, along with my colleague 
from Nebraska, Mr. Terry, H.R. 6012. This legislation is 
designed to reduce the number of seniors in this country with 
undiagnosed diabetes, and it is easy to see why we are doing 
this. We are spending upwards of $200 billion a year now 
combating diabetes in all forms. That is more money than we 
spend in Iraq in any given year during our wars.
    Figuring out a way to deal with this in a commonsense way 
that also mitigates the extensive human suffering that 
accompanies this epidemic disease is vital, and I appreciate 
the opportunity to address it today and take this up tomorrow 
in the markup.
    I yield back. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you. I think that is all of the members 
that we have, so we will go to our witnesses. Welcome to the 
subcommittee hearing. Let me introduce each of you.
    Starting on my left is Dr. Lawrence Tabak, who is Principal 
Deputy Director of the National Institutes of Health with the 
U.S. Department of Health and Human Services.
    Then we have Dr. Ileana Arias, who is principal Deputy 
Director of the Centers for Disease Control and Prevention, 
again with the U.S. Department of Health and Human Services.
    Then we have Dr. Marcia Brand, who is Deputy Administrator 
for Health Resources and Services Administration with HHS.
    And then I have--my note here says available for SAMHSA-
related questions is H. Westley Clark, who is--oh my. You have 
so many degrees I don't even know where to begin. You are a 
doctor, M.D., a lawyer, M.P.H., CAS, FASAM, Director of the 
Center for Substance Abuse Treatment, Substance Abuse and 
Mental Health Services Administration at the Department again.
    So we try to keep it to 5 minutes. Your statements will 
become part of the record. If you want to submit additional 
written comments, you may.
    I will start with Dr. Tabak.

   STATEMENTS OF LAWRENCE TABAK, PRINCIPAL DEPUTY DIRECTOR, 
NATIONAL INSTITUTES OF HEALTH (NIH), U.S. DEPARTMENT OF HEALTH 
 AND HUMAN SERVICES; ILEANA ARIAS, PRINCIPAL DEPUTY DIRECTOR, 
    CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC), U.S. 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND MARCIA BRAND, 
      DEPUTY ADMINISTRATOR, HEALTH RESOURCES AND SERVICES 
  ADMINISTRATION (HRSA), U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

                  STATEMENT OF LAWRENCE TABAK

    Dr. Tabak. Mr. Chairman and members of the subcommittee, 
thank you. I am honored to attend this hearing with my 
colleagues to discuss issues relating to legislation pending 
before this committee today.
    NIH and its research partners, patients and their families, 
scientists and their research institutions have collaborated to 
produce scientific understanding and medical innovation that 
has prolonged lives, reduced human suffering, and improved the 
quality of life for millions. Due to NIH research, mortality 
from heart disease and stroke has been cut by more than half in 
the United States. Today's new cancer therapies arrest the 
disease and prolong the life so cancer survivors number in the 
millions. Our blood supply is far safer because of tests for 
HIV and hepatitis B and C.
    NIH funded science has also helped people make lifestyle 
changes that promote health, such as eating less fat, 
exercising more and quitting smoking. These are a few examples 
of NIH funded discovery that have transformed medical care.
    NIH owes much of its success to the advocacy and strong 
support of millions of patients and their families. 
Historically, NIH has also been championed by Congress and has 
received strong bipartisan support. As a community, researchers 
on the NIH campus and around the country are very grateful for 
such support and are mindful of the responsibility we bear to 
be good stewards of the taxpayers' investment in medical 
science.
    NIH has also been given the flexibility and indeed, the 
explicit responsibility to exercise the scientific communities' 
best collective judgment in determining research priorities. 
These decisions are made in a dynamic matrix of scientific 
opportunity, public health needs, burden of disease, and the 
input and perspective offered by patients, their families and 
advocates, scientists, and public health experts.
    First and foremost, NIH must respond to public health 
needs, which are addressed through a complex balance among 
basic, transformative, and clinical sciences.
    Second, NIH applies stringent review provided by outside 
scientists who are experts in a given field, evaluating the 
quality of all research proposals considered.
    Third, scientific history has repeatedly demonstrated that 
significant research advances occur when new findings, often 
completely unexpected, open up new experimental possibilities 
and pathways.
    Finally, we strive to ensure the diversity of NIH's 
research portfolio as we simply cannot predict the next 
scientific revelation or anticipate the next opportunity.
    Having briefly discussed how NIH sets research priorities, 
I would like to review some of the research we are currently 
conducting in several of the disease areas that are addressed 
by the bills pending before the subcommittee.
    Juvenile idiopathic arthritis has no definitive cause and 
strikes children before they turn 16. The National Institute of 
Arthritis and Musculoskeletal and Skin Diseases funds a broad 
range of research, from basic studies of underlying mechanisms 
of arthritis to clinical studies exploring new treatment 
options. Scleroderma is a group of diseases in which the 
connective tissue that supports the skin and internal organs 
grows in a highly abnormal manner. NIMS has supported the 
Scleroderma Family Registry and DNA Repository, which has 
enabled researchers to conduct genome-wide association studies 
of scleroderma, which will provide insight into which genes are 
responsible for susceptibility to scleroderma, and which 
biological pathways may cause organ damage in the disease.
    Children deserve to be born healthy and to achieve their 
full potential for healthy and productive lives. NIH, led by 
the National Institute of Child Health and Human Development 
supports the bulk of research on normal and abnormal child 
health and development. The majority of NIH's institutes and 
centers include pediatric research in their portfolios.
    Regarding the subcommittee's interest in type 2 diabetes 
research for minority populations, NIH primarily through the 
National Institute of Diabetes and Digestive and Kidney 
Diseases is investing significant resources in multi-faceted 
research on this disease in minority populations, as well as 
obesity research.
    Let me conclude by offering the thanks of NIH, the 
biomedical research community, and the millions of American 
patients and their families for your unwavering dedication. I 
am personally grateful for your time and attention this 
afternoon, and look forward to your questions.
    Thank you.
    [The prepared statement of Dr. Tabak follows:]

    [GRAPHIC] [TIFF OMITTED] T8131A.001
    
    [GRAPHIC] [TIFF OMITTED] T8131A.002
    
    [GRAPHIC] [TIFF OMITTED] T8131A.003
    
    [GRAPHIC] [TIFF OMITTED] T8131A.004
    
    [GRAPHIC] [TIFF OMITTED] T8131A.005
    
    [GRAPHIC] [TIFF OMITTED] T8131A.006
    
    [GRAPHIC] [TIFF OMITTED] T8131A.007
    
    [GRAPHIC] [TIFF OMITTED] T8131A.008
    
    Mr. Pallone. Thank you, Dr. Tabak.
    Dr. Arias.

                   STATEMENT OF ILEANA ARIAS

    Ms. Arias. Mr. Chairman, Ranking Member Shimkus, and 
members of the subcommittee, thank you for the opportunity to 
testify today along with my colleagues from the Department.
    This is an exciting time to be engaged in prevention and 
public health. We are currently improving our immunization 
programs, taking steps to reduce healthcare associated 
infections, rebuilding our Nation's public health 
infrastructure, and supporting communities across America as 
they tackle critical problems like obesity and youth smoking.
    In the years ahead, millions more Americans will have 
coverage for preventive services. We are anxious to take 
advantage of these opportunities, and to track the health gains 
that this focus on prevention can bring.
    I am pleased to be here as you consider legislation to 
address certain health issues of concern. We appreciate the 
interaction that we have had with members of the subcommittee 
and staff on these bills, and we greatly appreciate the 
opportunity to share our public health expertise with you.
    CDC's mission is to promote health and quality of life by 
preventing and controlling disease, injury, and disability. 
Working closely with our sister agencies, CDC is committed to 
reducing the health economic consequences of the leading causes 
of death and disability, thereby promoting a long, productive, 
and healthy life for all people in the country. Today I want to 
provide you with a broad perspective on CDC's current efforts 
to achieve these goals, and to discuss CDC's work that relates 
to many of the bills that you are considering.
    First, I would like to review a few of CDC's current 
initiatives that demonstrate the range of public health 
challenges that we are facing. CDC has begun an effort to 
achieve measurable impact quickly in a few targeted areas, 
which we refer to as ``Winnable Battles.'' These Winnable 
Battles were selected based on the scope of the burden posed by 
these health threats, and equally importantly, CDC's ability to 
make significant progress in improving relevant health 
outcomes. To date, CDC director Dr. Thomas Frieden and CDC 
leaders have identified six Winnable Battles, and have outlined 
a number of achievable priorities and opportunities for each of 
these.
    The six Battles are, first, prevention of HIV; second, 
motor vehicle collisions; third, the prevention of healthcare 
associated infections; fourth, the control of tobacco; fifth, 
prevention of teen pregnancy; and then lastly but not least, 
the prevention of obesity, the improvement of nutrition, 
physical activity, and food safety, which includes diabetes, a 
critical and costly health problem that the subcommittee is 
working to address today in three legislative initiatives 
advanced by Representatives Engel, DeGette, and Space.
    In many cases, we have known effective solutions; in 
others, such as gestational diabetes, work remains to identify 
the path to prevent the issue.
    First, the CDC leadership has identified five strategic 
priorities to help achieve these Winnable Battles and to 
support other public health priorities. The first of these five 
priorities is applying effective policies. The science 
currently tells us that effective policies in areas such as 
tobacco control, motor vehicle safety, healthy eating, and 
physical activities in schools and communities can save lives 
and reduce healthcare costs. We are increasing our 
effectiveness in this area. The subcommittee today is 
considering a bill on methamphetamine education and treatment, 
which is very relevant to CDC's effort to identify policy 
interventions that can reduce the health toll from overuse of 
prescription medications.
    Second, providing leadership in global health. Global 
public health investments have a direct benefit on U.S. public 
health and U.S. national security. Programs in AIDS, malaria, 
and pandemic preparedness have improved health systems 
throughout the world and strengthened our outbreak response. 
CDC has specifically created a new global health center to 
accelerate work in this area.
    Third, with the support of Congress and the public health 
and prevention fund, CDC is making investments that will 
significantly address the third priority, improving and 
strengthening surveillance, epidemiology, and laboratory 
capacity. This is essential and critical to our ability to 
identify health problems and to develop--and importantly to 
track the progress of solutions. Many of the bills being 
considered by the subcommittee today explicitly call for 
improvements in the availability of data on public health 
issues, such as Representative Burgess' work with Mr. Van 
Hollen on surveillance of neurological diseases, Representative 
Baldwin's initiative to expand data collection on sexual 
orientation and gender identity, Representative Eshoo's 
proposal to advance arthritis surveillance, and Representative 
Johnson's focus on neglected diseases, and Representative 
DeLauro's initiative on birth defects. We are confident that 
any of these specific mandates would benefit from CDC's current 
focus on improving national surveillance capacity.
    State, local, tribal, and territorial health agencies 
collect surveillance data, they conduct laboratory testing, and 
they investigate outbreaks and take public health action. They 
essentially are our boots on the ground. Because these CDC 
partners are critical to implementing public health programs 
across the country, many of the measures before the 
subcommittee today rely on grants to these agencies to achieve 
the bills purposes. These measures include Representative 
Space's work to increase research and data collection on the 
widespread occurrence but unclear origins of gestational 
diabetes, and Representative Eshoo's initiative to implement a 
State-based call-in system providing individuals with 
information about human services. We are confident that CDC's 
focus on working with our partners to improve the performance 
of public health agencies would improve the capacity relative 
to these specific initiatives.
    Our final priority is to use the above strategies and the 
focus on Winnable Battles to have a significant impact on the 
leading causes of death, illness, injury, and disability. CDC 
would be interested in working with the subcommittee to ensure 
that any initiatives being considered today could build on 
successful efforts to address high-burden health problems. For 
example, this week CDC launched a campaign addressing 
prevention of gynecological cancers, and we will also be 
addressing heart disease through the WISEWOMAN program. These 
programs address cancer and heart disease, which are among the 
leading causes of death in our country.
    With the support of Congress we have made progress in 
addressing the Nation's most pressing health needs, and the 
focus I have outlined above, supported by investments in the 
Recovery Act and the Affordable Care Act, we feel we are poised 
to accelerate these gains.
    I appreciate the opportunity to discuss CDC's work with 
you, and look forward to working with the subcommittee as you 
consider the legislative initiatives before you. Thank you.
    [The prepared statement of Ms. Arias follows:]

    [GRAPHIC] [TIFF OMITTED] T8131A.009
    
    [GRAPHIC] [TIFF OMITTED] T8131A.010
    
    [GRAPHIC] [TIFF OMITTED] T8131A.011
    
    [GRAPHIC] [TIFF OMITTED] T8131A.012
    
    [GRAPHIC] [TIFF OMITTED] T8131A.013
    
    [GRAPHIC] [TIFF OMITTED] T8131A.014
    
    [GRAPHIC] [TIFF OMITTED] T8131A.015
    
    [GRAPHIC] [TIFF OMITTED] T8131A.016
    
    [GRAPHIC] [TIFF OMITTED] T8131A.017
    
    Mr. Pallone. Thank you, Dr. Arias.
    Dr. Brand.

                   STATEMENT OF MARCIA BRAND

    Ms. Brand. Yes, good afternoon, Mr. Chairman----
    Mr. Pallone. I think it is either not on or not close 
enough to you.
    Ms. Brand. Good afternoon----
    Mr. Pallone. A little closer.
    Ms. Brand. Mr. Chairman----
    Mr. Pallone. Is it on?
    Ms. Brand. Yes.
    Mr. Pallone. Green light, OK.
    Ms. Brand. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity today to testify on behalf on the 
Secretary for Health and Human Services, Kathleen Sebelius, and 
Dr. Mary Wakefield, the Administrator of the Health Resources 
and Service Administration. I am Marcia Brand. I am the Deputy 
Administrator at HRSA and I am pleased to join my other 
Department colleagues appearing before you today.
    The Health Resources and Services Administration helps the 
most vulnerable Americans receive quality primary healthcare 
without regard to their ability to pay. HRSA works to expand 
access to healthcare for millions of Americans, the uninsured, 
the underserved, and the vulnerable. The individuals we serve 
include mothers and their children, those living with HIV and 
AIDS, and residents of rural areas. HRSA recognizes that people 
need to have access to primary healthcare, and through its 
programs and activities, the agency seeks to meet these needs.
    HRSA delivers on its obligation to address primary care 
access through six bureaus and 13 offices that comprise the 
agency. HRSA helps to train future nurses, doctors, and other 
health providers, placing them in areas of the country where 
health resources are scarce. The agency collaborates with 
government at the federal, state, and local levels, and also 
with community-based organizations to seek solutions to primary 
healthcare challenges. HRSA provides leadership and financial 
support to healthcare providers in every state and every U.S. 
territory.
    HRSA's vision for the Nation is health communities and 
healthy people. Our mission is to improve health and achieve 
health equity through access to quality services, a skilled 
health workforce, and innovative programs. The agency seeks to 
further our vision and carry out our mission through our four 
major goals: improve access to quality care and services, 
strengthen the health workforce, build healthy communities, and 
improve health equity.
    At HRSA, we believe that primary case is more than having a 
place to go when you are sick. We view primary case as the 
Institute of Medicine does, providing integrated, accessible 
care services by clinicians who are accountable for addressing 
a large majority of personal healthcare needs, developing a 
sustained partnership with patients, and practicing in the 
context of family and community.
    In addition to supporting the provision of direct patient 
care, HRSA focuses on implementing programs that increase the 
number of primary care providers, including the National Health 
Service Corps. HRSA programs train primary care providers, 
long-term care workers, and individuals skilled in providing 
care for the elderly. HRSA programs also support loans and 
scholarships that encourage disadvantaged individuals and those 
from diverse backgrounds to enter into the health profession.
    HRSA is committed to making sure that the U.S. has the 
right clinicians and the right skills working where they are 
needed most. HRSA-funded centers are often the practice sites 
for clinicians trained and supported through our programs. 
HRSA-funded health centers are community-based and patient-
directed organizations that serve populations with limited 
access to healthcare.
    HRSA's programs, however, are as diverse as the 
individuals, families, and communities that we serve. Among the 
innovative programs that we oversee are organ, bone marrow, and 
cord blood donation. The agency also coordinates activities 
related to rural health within the Department of Health and 
Human Services, and for 20 years, HRSA's Ron White HIV/AIDS 
program has provided a legacy of care to persons living with 
HIV and AIDS. Our programs play a critical part in the Nation's 
healthcare safety net.
    It seems fitting to close my overview of HRSA's programs by 
noting that our Title V Maternal and Child Health Services 
Block Grant program, which is the Nation's oldest federal state 
healthcare partnership, will be celebrating its 75th 
anniversary this year. Title V has provided a foundation and 
structure for ensuring the health of the Nation's mothers and 
children.
    In closing, Mr. Chairman and members of the subcommittee, 
tens of millions of Americans get affordable healthcare and 
other assistance through HRSA's programs and its 3,000 
grantees. We are extremely proud of our programs and look 
forward to continuing to work with you to provide quality 
primary care for all. I appreciate the opportunity to testify 
today, and hope this testimony will inform the subcommittee's 
future deliberations on the many important legislative 
proposals before you.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Ms. Brand follows:]

    [GRAPHIC] [TIFF OMITTED] T8131A.018
    
    [GRAPHIC] [TIFF OMITTED] T8131A.019
    
    [GRAPHIC] [TIFF OMITTED] T8131A.020
    
    [GRAPHIC] [TIFF OMITTED] T8131A.021
    
    [GRAPHIC] [TIFF OMITTED] T8131A.022
    
    [GRAPHIC] [TIFF OMITTED] T8131A.023
    
    [GRAPHIC] [TIFF OMITTED] T8131A.024
    
    [GRAPHIC] [TIFF OMITTED] T8131A.025
    
    Mr. Pallone. Thank you, Dr. Brand.
    Dr. Clark, you were just here to answer questions, right? 
OK. So we will go to the questions and I will start with myself 
and recognize myself for 5 minutes.
    I wanted to ask about the veterinary bill, H.R. 299, 
because that is one of the ones that I am particularly 
concerned about. I will ask Dr. Brand--I will start with you.
    Your testimony describes HRSA's work to support the 
training and education of health professionals. I would like to 
ask you about HRSA's support for public health professionals. 
My understanding is that HRSA administers programs to promote 
the training and education in various ways, but how does this 
relate to this bill in particular? And if you could tell us how 
certain veterinarians with expertise in public health 
contribute to the public health workforce.
    Ms. Brand. HRSA already provides support for veterinary 
schools through our health profession student loan program. 
Scholarships for disadvantaged students, our HCOP program, 
which is our Health Careers Opportunities Program, geriatric 
education centers, loans for disadvantaged students, and our 
Centers for Excellence Program. So we already have a 
relationship with a number of veterinary schools.
    We have also a new provision that would allow us to provide 
loan support for veterinarians and support their training, 
should those resources be made available.
    Mr. Pallone. And then Dr. Arias and Dr. Tabak, is there 
anything you would like to add about the role of these 
veterinary public health professionals from either CDC or NIH 
perspectives, if you would?
    Dr. Arias.
    Ms. Arias. Sure. CDC clearly recognizes the relationship 
between veterinary issues, emerging issues among animals and 
then humans. In fact, H1N1 is the most recent example of how it 
is that what happens with animals is something that eventually 
can influence humans, which is what we are primarily charged 
with making sure we address.
    In addition to that, we continue to face the challenge of 
vector-borne illness, the most obvious of those currently is 
the spread of Dengue Fever, which first was a significant issue 
in Puerto Rico but now has crossed borders into Florida, making 
sure that we engage in whatever it is that we have to do in 
order to make sure that that spread does not continue. One of 
the things that we are committed to is making sure that we 
identify and rely on the professional expertise of all those 
who need to be brought to the table so that we can then address 
those health issues among humans in an effective way, and 
veterinary professionals are part of that.
    Mr. Pallone. Thank you.
    Dr. Tabak.
    Dr. Tabak. Yes. I can tell you that the NIH, through the 
National Center for Research Resources, administers programs 
that are similar to the bills' goals with regard to training in 
infectious disease and environmental research. These include 
training programs and career development programs specifically 
oriented to veterinarians receiving training in biomedical and 
translational research of public health significance, as well 
as providing funding for the construction acquisition of 
equipment, and other capital costs related to the expansion of 
entities related to veterinary medicine, biomedicine, and 
public health.
    Mr. Pallone. OK, thanks.
    Can I ask Dr. Clark--I have to ask you something, since 
that is why you are here, right?
    On the methamphetamine bill, H.R. 2818, it reauthorizes and 
enhances residential treatment programs for pregnant women and 
mothers. What need does this program meet that makes it 
different from other drug treatment programs, and does the bill 
only address meth?
    Dr. Clark. The--we take no official position on the bill, 
per se, but we do recognize that the important issues 
associated with substance use and pregnant women, and the 
intergenerational transmission of substance abuse-related 
problems. We know that methamphetamine affects not only 
children, families, law enforcement, but the environment, so we 
have specific programs targeted to pregnant, postpartum, and 
parenting women, and this bill assists us in addressing that.
    Since 2002, we--through our existing pregnant, postpartum 
women program we have treated almost 4,700 women; 51.6 percent 
were pregnant. So this bill allows us to move what we have been 
doing in the field, to change the authorization to include 
outpatient care, and women who are parenting but who are not 
pregnant. And that is an important thing.
    I should note that our program has included care for 4,000 
children, 58 percent of whom were in their mother's custody, so 
that becomes an important issue, because as we are aware, 
reuniting families is an important issue where possible. So 
this bill would allow those issues to be addressed, and we are 
very much concerned about that, making sure that families can 
be reunited. We deal with the substance abuse issue, both in 
residential an outpatient settings, and the authorization 
associated with this bill broadens the scope of our current 
activity.
    Mr. Pallone. OK, thank you.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I would like for you, 
Dr. Brand and Dr. Arias, to send my warm regards to the 
Secretary and let her know I look forward to her coming 
sometime. She will eventually get here and we will eventually 
have an interesting day of addressing questions and concerns 
about implementation. It is important, because a lot of these--
a lot of our consternation here is that the dust hasn't settled 
on the law. The new law does give the Secretary a lot of 
authority and money to do a lot of things that a lot of these 
bills could do without authorization. So that is of concern. 
That is the point of some of these questions.
    Let me go to Dr. Arias first. I understand that CDC has 
been involved with arthritis research, education, and 
surveillance, including the implementation of a National 
Arthritis Action Plan. Would you describe these activities for 
us?
    Ms. Arias. I can get you more specific information that I 
think is going to be more helpful to you for the written 
record, but just broadly, it is to primarily provide education 
about arthritis, and then encourage the linkage of individuals 
afflicted with arthritis to services that may be important for 
them in order to improve the quality of life.
    One of the significant concerns among individuals with 
arthritis, especially with increasing age, is the high risk for 
falls, and then unfortunately the negative health consequences 
associated with that. So not only because of the arthritic 
issues per se, but then the consequences for general health 
that unfortunately are true for those individuals. Our program 
then expands and looks at those issues as well.
    Mr. Shimkus. So we already have a plan to some extent, is 
that correct?
    Ms. Arias. I can get--to the extent that we have a plan, I 
will send that to you as follow-up. I know that we have the 
broad strategy as to be able to then identify individuals who 
are afflicted and make services either for prevention or----
    Mr. Shimkus. Can you--when you also do this, can you send 
us how much money CDC is currently spending on this plan? We 
think you do have a plan, so----
    Ms. Arias. Certainly, we can do that.
    Mr. Shimkus. Issue two on this is part of the arthritis 
bill talks about a $19 million funding for rheumatologists--
pediatric rheumatologists, and it is our understanding--in 
fact, I have a pull-out here as to the big law--and here is the 
page--but in Section 5203 of the new healthcare law, there is--
it looks like $30 million loan repayment program for pediatric 
specialists, loan repayment program. Would--this also could be 
available for--I mean, it is a pediatric specialist--pediatric 
rheumatologist would be a pediatric specialist, would it not?
    Ms. Arias. Yes, although I couldn't speak to a repayment 
program, and I don't know if her----
    Mr. Shimkus. Well, that is why we need the Secretary here, 
because that is the part of the new law.
    Dr. Brand.
    Ms. Brand. Well----
    Mr. Shimkus. It is 5203.
    Ms. Brand. Yes, sir. It creates the pediatric specialties 
loan repayment program, and HRSA does manage the loan repayment 
programs. I don't believe any resources remain available for 
it, so it is----
    Mr. Shimkus. Well, there is $20 million for each of the 
fiscal year 2010 through 2013, which is part of the law----
    Ms. Schakowsky. Excuse me, would the gentleman yield just 
for factual----
    Mr. Shimkus. Sure, yes.
    Ms. Schakowsky. Let me just say that the $30 million that 
was originally in 2010--H.R. 2010 has been taken out. It is out 
of the bill, the bill that is before us now.
    Mr. Shimkus. You are talking about the $19 million. This is 
the healthcare law that we signed----
    Ms. Schakowsky. No, I understand that, but there is no 
redundancy. I just wanted to make that point.
    Mr. Shimkus. Well, we have--unless you pulled it out from 
what we were provided right before the hearing, it is in here 
now.
    Hopefully then as we move forward--that is our question. 
That is why we have hearings, to try to address redundancies, 
and if that is the case, we appreciate it.
    I also need to move to Dr. Arias again. In fiscal year 
2011, the CDC budget justification request includes an increase 
of $79.4 million above the fiscal year 2010 omnibus for the 
World Trade Center program for a total of $150 million. Your 
budget justification states with this increase, CDC will 
continue to provide monitoring and treatment services for 
mental and physical health conditions related to World Trade 
Center exposures for both responders and eligible non-
responders. The World Trade Center program is critical in 
meeting the ongoing and long-term special needs of individuals 
that were exposed to smoke, dust, debris, and psychological 
trauma from the World Trade Center attacks. This increase will 
enable CDC to continue providing these much needed services.
    The question some members are apparently unaware that CDC 
currently provides monitoring and treatment services for first 
responders of the World Trade Center related attacks, so you 
can--can you confirm that CDC does, in fact, currently provide 
monitoring and treatment services?
    Ms. Arias. We don't provide services. We do provide 
technical assistance to develop a registry, and then the 
surveillance of individuals who were exposed and whatever 
health conditions they may present, but we don't provide the 
services.
    Mr. Shimkus. And the services are provided where?
    Ms. Arias. The services are provided in New York City by 
community-based organizations, hospitals in that area.
    Mr. Shimkus. Great, thank you. My time is expired, but I 
will just put on the record, the First Lady's Let's Move 
program is a program that is not authorized but is funded by 
the--by HHS, through, I guess, by some discretionary funding 
and the like. So the point, again, for us is a lot of these 
things HHS has the authority to do, can do, and I will just put 
that on the record.
    I yield back my time.
    Mr. Pallone. Our vice chair, Ms. Capps.
    Mrs. Capps. Thank you, Mr. Chairman. As some people know, I 
have been a very proud sponsor of the Heart for Women Act since 
2006, and a big component of this legislation is expanding the 
CDC's WISEWOMAN program, which you referenced, Dr. Arias, in 
your testimony, which screens low income, uninsured, and 
underinsured women between the ages of 40 and 64 for 
cardiovascular disease. The program also provides outreach, 
referral, education, and counseling to the participants.
    Dr. Arias, would you please speak a bit about the success 
of the WISEWOMAN program? Is this considered a valuable and 
effective program, and does the CDC favor expanding it?
    Ms. Arias. We are very excited about the opportunity for 
more women to have access to basic screening and other 
preventive measures starting in 2014. We look forward to 
WISEWOMAN continuing as a vital complement to those services. 
WISEWOMAN currently provides for a specific health screening, 
but it is actually a broader effort to improve heart health 
among women. So in addition to those clinical preventive 
services, women in the program can also take advantage of 
lifestyle programs that target poor nutrition, physical 
inactivity, smoking. It includes programs such as cooking 
classes in order to improve nutrition, not just in those women 
but their families, fitness classes and competitions, and quit 
smoking classes.
    These are elements that are not part of clinical preventive 
services, and therefore we are committed to continuing making 
sure that these are provided and supported, since there is a 
significant need for them. It is important to recognize that 
having insurance coverage doesn't necessarily mean that 
individuals receive recommended preventive services.
    So from our experience with WISEWOMAN, especially in the 
breast and cervical cancer screening program and our 
immunization program, we understand that it takes much more. 
And so we are looking forward to being able to provide even 
greater comprehensive response to a leading cause of death for 
women in the U.S.
    Mrs. Capps. Thank you. Actually, I will follow-up with a 
question but you kind of answered it. There are some who are 
saying--you know, question whether we need an expanded role for 
WISEWOMAN program into the future, because both immediate and 
long-term after 2014, when most of the new health reform law 
goes into effect.
    It talks a little bit more about ways that you see this 
being complimentary and not duplicative of the primary care 
that we expect everyone to be accessing.
    Ms. Arias. Yes, you are correct, and that is our intention. 
It has been our--we are very interested in making sure that we 
coordinate with clinical services, as we should in order to 
have a good response to health conditions. However, from a 
public health perspective, that is not our primary focus. It is 
really looking at the context in which those clinical services 
are made available and are accessed by individuals that can be 
supported in ways that the services themselves will not do.
    Mrs. Capps. So you--this is one of the areas--and I imagine 
that there are very many other ones as well, where programs in 
the community, that are based in the community that serve 
particular populations will only be enhanced by having more of 
your target group now also receiving primary care, and that 
this will be a symbiotic relationship rather than one competing 
or in any way duplicating what the other is doing. Rather, it 
will help to reinforce and actually extend the value of primary 
care that hopefully more women will be getting for themselves 
and for their families.
    Ms. Arias. Yes, that is exactly correct, and a major reason 
for why I said that this is a very exciting time for public 
health, as we look forward to how it is that we can bring down 
costs, improve the quality of life for every man, woman, and 
child in this country.
    Mrs. Capps. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Pallone. The gentleman from Pennsylvania, Mr. Pitts. We 
went and visited your district to see the University of 
Pennsylvania--what do we call it--veterinary campus when we 
were looking at the--at Tammy's bill. We went to the farm--all 
the farms and it was very interesting. Large animal farm, yes. 
It was great.
    Mr. Pitts. Thank you. You are welcome to come anytime.
    Thank you, Mr. Chairman. Dr. Arias, you mentioned the 211 
in passing and described it as a bill to implement a state-
based call-in system providing individuals with information 
about human services.
    Implement infers these programs do not exist. Are you aware 
of the programs that do exist? Forty-seven states already have 
these programs?
    Ms. Arias. We know that states have been moving in the 
direction of providing similar types of programs. Our staff 
have been primarily involved with committee staff on figuring 
out what is the best way of implementing the bill, if it should 
move forward in order to capitalize on what already has been 
done, and build upon what has been done.
    Mr. Pitts. Does the Administration support H.R. 211?
    Ms. Arias. I do not--there is no official policy on this 
bill or any of the bills, actually, that we are discussing 
today. It is a complex sort of decision-making process in terms 
of what are the kinds of things that will get supported and 
done, and we--and it usually involves coordinating among all of 
the agencies within the Department and then within the 
Administration, and that process has not been complete.
    Mr. Pitts. All right. Would the services provided by the 
211 bill be considered an HHS health services program?
    Ms. Arias. Does HRSA want to comment on that?
    Mr. Pitts. Dr. Brand?
    Ms. Brand. In terms of health services program, Health 
Resources and Services Administration? It is not, as I 
understand it, it is directed toward the CDC from the 
management up. It is not something that HRSA would do. There 
is, certainly, an interest in ensuring that folks have access 
to information about Health and Human Services for the 
underserved, and this is one vehicle for accomplishing that. 
But the Department hasn't taken a position on this.
    Mr. Pitts. 211 programs are currently funded by states, and 
some states have chosen to allow these services to make 
referrals to abortion service providers. Many believe that the 
federal taxpayer funds should not be utilized to subsidize or 
refer for abortions.
    Would H.R. 211 allow states to receive federal funds for 
211 services, and those services refer patients to abortion 
service providers?
    Ms. Arias. Most likely we will be consulting with other HHS 
agencies and other administrative agencies before making that 
determination. And again, the issue is whatever then is allowed 
by law, one, and the other by administrative regulations is 
what we would look to in terms of deciding what is it--what 
kinds of services actually do get covered and what wouldn't get 
covered.
    Mr. Pitts. OK. H.R. 1347 requires HHS to establish 
concussion management guidelines that address the prevention, 
identification, treatment, and management of concussions in 
school-age children, including standards for student athletes 
to return to play after a concussion.
    How would these guidelines differ from CDC's Heads Up 
program that Dr. Kapil testified about last week at the 
subcommittee's field hearing in New Jersey?
    Ms. Arias. The Heads Up program is a specific campaign to 
educate professionals and educate parents and athletic 
personnel on how to, number one, how to recognize concussion, 
how to manage them. The bill, in my understanding, is that it 
would be an extension of that. Currently we have provided those 
materials, we have generated those materials. They are 
available for use and that is as far as we have been able to 
take that program.
    Mr. Pitts. In developing the Heads Up educational 
materials, did CDC consult with outside experts?
    Ms. Arias. We did consult with both professional and then 
with education and with sports professionals in the context of 
the educational sector as well.
    Mr. Pitts. Does CDC have a grant program to states to 
conduct injury surveillance and develop strategic plans and 
engage in coalition building work to address injuries?
    Ms. Arias. We have a broad program to address--to 
essentially support state and local health departments. A lot 
of--well, a significant number of activities that they engage 
in are surveillance activities for the number of issues with 
both unintentional injury and intentional or violence.
    Mr. Pitts. And does--go ahead. Were you finished?
    Ms. Arias. I was going to add, it is a very small program. 
It is not a very comprehensive program. Currently there are 
only 30 states that are being supported for a small amount, and 
again, they usually then often have enough to just support--to 
just focus on the surveillance activities.
    Mr. Pitts. OK, my time is up. Thank you, Mr. Chairman.
    Mr. Pallone. The gentlewoman from Wisconsin, Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman. Before I begin my 
questions, I would like to submit four items for the record. 
The first is a letter of support for H.R. 2999 and the 
manager's amendment that we will be offering during tomorrow's 
markup. The second is a small section out of the 1999 World 
Health Organization report titled ``Future Trends in Veterinary 
Public Health,'' and specifically, I just want to put into the 
record the scope of VPH in the 21st century, because it 
contains a definition of veterinary public health that I think 
will be helpful to have in the committee record. And then two 
additional items in support of H.R. 6109. The first is 
testimony of the Human Rights Campaign submitted by Joe 
Solomon, he is president, and also an article entitled ``How to 
Enclose the LGBT Health Disparities Gap'' from the Center for 
American Progress.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Ms. Baldwin. Thank you, Mr. Chairman.
    First, I would like to--I would be interested in answers 
from all of our witnesses on this question, but perhaps we 
could start with Dr. Arias to respond more generally, and then 
move to Dr. Tabak for an update on the Institute of Medicine's 
work.
    But is it your belief that the Department's current 
understanding of LGBT health is sufficient to inform federal 
initiatives to reduce health disparities? Would legislation to 
ensure the voluntary collection of data on sexual orientation 
and gender identity as appropriate and practicable in programs 
and surveys that are supported by the Department of Health and 
Human Services help to improve and expand the Department's 
understanding?
    Start with you, Dr. Arias.
    Ms. Arias. Thank you. One of the things that, if you hang 
around with epidemiologists for any amount of time, you very 
quickly learn that measurement is key, key issue. Whatever gets 
measured is addressed. What doesn't get measured doesn't exist 
and doesn't get addressed.
    One of the challenges that we face is not knowing and not 
having a sufficient understanding of LGBT health. CDC is 
committed not only to promoting and protecting health, but 
making sure that we address whatever health disparities or 
inequities may exist, and unfortunately, currently we don't 
have enough information to be able to identify what those 
disparities are.
    Ms. Baldwin. Thank you. Dr. Tabak, could you give us 
general comments and any update you have on the Institute of 
Medicine's inquiry into this matter?
    Dr. Tabak. Yes, thank you. As you know, NIH determined that 
more information about research needs and gaps in this area 
were needed, and so commissioned a study by the Institute of 
Medicine, who is conducting a study and will be submitting a 
report on the state of knowledge regarding LGBT health, health 
risks, and protective factors and health disparities, and we 
expect that report in the spring of 2011.
    There are many challenges, obviously, that were made to 
conducting research and address health disparities in LGBT 
populations, and so we are looking forward to the IOM report, 
and continuing to work with the research community to address 
the research gaps and opportunities in this area.
    Ms. Baldwin. Thank you.
    Dr. Brand?
    Ms. Brand. Yes. HRSA agrees with CDC and NIH, and we don't 
think we have sufficient understanding of LGBT issues, and we 
look forward to working with our colleagues at CDC and NIH to 
better understand those issues.
    Ms. Baldwin. Thank you. We are also talking a little bit 
about veterinary public health and H.R. 2999. Dr. Brand, you 
were asked a little bit about current existing loan repayment 
programs in HRSA.
    I am specifically interested in how effective those have 
been in recruiting and retaining public health veterinarians? 
How many public health veterinarians have been able to access 
these funds, and is it your belief that you are reaching the 
full universe of public health veterinarians who could be 
working to meet our Nation's public health needs?
    Ms. Brand. It is clear that there are shortages of public 
health providers in all of the disciplines, and certainly, this 
is one of them. I would have to go back and ask my colleagues 
at HRSA to find out how effective we have been at reaching 
folks through these programs.
    These programs do a variety of activities. They recruit 
individuals and encourage them to go into health careers or 
stay in health careers or help offset their student expenses. 
It is not the direct loan that perhaps is suggested in the 
bill.
    Ms. Baldwin. I would just add briefly, we had a hearing on 
the full bill last session and it was so illuminating for me to 
realize how critical public health veterinarians were in 
responding to human health threats. I mean, you wouldn't think 
of it intuitively, and then we found out so much about that.
    It is my understanding that a very small fraction of the 
currently available funds are actually directed to public 
health veterinarians, and we will follow-up after--in making 
the record full, but I am delighted, Mr. Chairman, that you 
have chosen to put this bill on the hearing docket, as well as 
the markup docket for tomorrow.
    Mr. Pallone. Thank you.
    Mr. Burgess.
    You are recognized for whatever you like.
    Mr. Burgess. Mr. Chairman, I would like to ask unanimous 
consent for the letters that we have received in support for 
the National Neurologic Disease Surveillance System Act of 
2010, from the Alliance for Aging Research, the American 
Academy of Neurology, Distonia Medical Research Foundation, 
National Multiple Sclerosis Society, Parkinson's Action 
Network, Research America, and the MS Coalition, the American 
Brain Coalition to be entered into the record.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Mr. Burgess. In addition, I ask unanimous consent for the 
letters we have received in support of the Gestational Diabetes 
Act of 2010 from the American Association of Colleges of 
Pharmacy, the American Diabetes Association, the American 
Association of Diabetes Educators, the American Congress of 
Obstetricians and Gynecologists, the American Medical Women's 
Association, the Association of Women's Health, Obstetric and 
Neonatal Nurses, and the Society for Women's Health Research be 
entered.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Mr. Burgess. And finally, I ask unanimous consent that the 
letters we received in support for the Birth Defects Prevention 
Risk Reduction Awareness Act of 2010 from the American College 
of OB/GYN, Allergy and Asthma Network, Mothers of Asthmatics, 
American Academy of Allergy, Asthma and Immunology, the 
American Academy of Pediatrics, the March of Dimes Foundation, 
Spina Bifida Association, and the Organization of Tetrology 
Information Specialists be also entered.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Mr. Pallone. Oh, I see. You were trying not to have that 
count towards your time. Was that the idea?
    Mr. Burgess. I have learned under your guidance, Mr. 
Chairman.
    Mr. Pallone. I see, OK.
    Mr. Burgess. I would also ask unanimous consent that my 
opening statement be entered into the record.
    Mr. Pallone. So ordered.
    [The information was unavailable at the time of printing.]
    Mr. Burgess. I apologize for not being here at the start of 
the hearing.
    Let me just ask you a question, Dr. Arias. You just said 
what gets measured gets addressed, in response to a previous 
question. Would you also agree that if we measure to address, 
registries will help tell us how we are doing?
    Ms. Arias. Part of our interest in surveillance activities 
is not only to identify what the problems are and who needs to 
be served in order to address those issues, but then also over 
time to be able to measure the effectiveness of whatever 
solutions are implemented or tried.
    Mr. Burgess. So in other words, to make better decisions on 
how to spend the research dollars?
    Ms. Arias. Yes, sir.
    Mr. Burgess. So the cost of providing these tools for 
surveillance would be a wise investment, so that we have the 
useful data and make the Federal Government better stewards of 
the billions of dollars of taxpayer's money they are spending 
on medical research?
    Ms. Arias. Yes, sir. Certainly at CDC we do try to be good 
stewards of how it is that those federal dollars are invested. 
Again, the major issues that we look at when we make those 
decisions is, number one, what is the burden and so is it a 
significant problem that is going to address the greatest 
number of people, then the other is do we currently have 
strategies--evidence based strategies that will allow us to 
intervene.
    And so usually those two are critical issues, and then 
making sure that that investment is an optimal one.
    Mr. Burgess. And Dr. Tabak, from the NIH perspective would 
you agree with that, that a surveillance system does help us 
measure--not just measure, but tell us how we are doing with 
those things that we are measuring?
    Dr. Tabak. Well, as you know the CDC is responsible for 
surveillance, but certainly that helps inform the situation, 
yes, sir.
    Mr. Burgess. But referencing here specifically 1362, the 
National MS and Parkinson's Disease Registries Act--and I 
trust, have you all had made available to you the amendment in 
the nature of a substitute that will be submitted during the 
markup later when we do that? Is that information that you have 
available?
    Dr. Tabak. I do not, sir.
    Mr. Burgess. Well again, the concept would be to allow 
scientists to better leverage efforts to find better treatments 
and cures for this compendium of neurologic diseases. Again, 
Dr. Arias, I would assume that you would be in agreement with 
the general notion of that?
    Ms. Arias. Yes, we are. Generally we are very supportive 
of--and look for opportunities to cover as many things as we 
need to in order to be able to, again, make those sound 
investments with either current surveillance systems, or the 
development of those surveillance systems over time.
    Mr. Burgess. And then Dr. Tabak, as we get further into 
development and understanding of the human genome we will be 
able then to cross reference to these surveillance systems of 
registries in order to help more patients and perhaps identify 
additional risk factors that were not previously anticipated.
    Dr. Tabak. Yes, of course. As you identify genetic linkages 
through genome-wide association studies, the idea then is to 
circle back to patients to see how generalizable things are, 
and in fact, there is research currently being supported by NIH 
in this arena.
    Mr. Burgess. Let me--Dr. Arias, let me just ask you, moving 
on to the Gestational Diabetes Act of 2009, H.R. 5354. Are 
there currently any demonstration grants going toward 
gestational diabetes education?
    Ms. Arias. We are currently working to strengthen state 
capacity for diabetes prevention programs. Prevention of type 2 
diabetes is an outcome of addressing CDC's Winnable Battle of 
obesity, nutrition, and physical activity. We do not have a 
specific gestational diabetes component to that, but are 
committed to addressing whatever the needs are within the broad 
framework of diabetes prevention.
    Mr. Burgess. So you would agree that having a specific 
effort to look at gestational diabetes is an important part of 
our overall diabetes management?
    Ms. Arias. Again, what we would do is based on whatever 
science is available at that point in--at any particular point 
in time, giving us a good picture of where the issue is and 
what can be done about it to determine where is the best place 
to try to intervene.
    Mr. Burgess. Let me just ask you, Dr. Arias, one last 
question in regards to H.R. 5462, the Birth Defects Prevention 
and Risk Reduction and Awareness Act.
    Are you familiar with the pregnancy risk information 
services as they exist in a handful of states, such as my home 
State of Texas?
    Ms. Arias. Yes, and we do support just a handful of states 
to actually collect information and do some educational work on 
pregnancy-related issues and birth issues.
    Mr. Burgess. Well, I mean I was a practicing OB/GYN for 25 
years before I came to Congress. I will just tell you there are 
precious few places to go for the practitioner, and this really 
came home to me last August. We were all gearing up for H1N1 
and what the impact of that was going to be, and in fact, on 
the phone with researchers at NIH one day, and really felt for 
the practitioner out there in the communities who was going to 
be seeing a great number of school teachers who possibly could 
become pregnant during the school year who were going to be 
teaching young children who might be reservoirs of H1N1. It 
really was a conundrum about how to advise this large subset of 
the population. Do you seek a vaccination or is this something 
that would become demanded by the pregnancy? It really put a 
big burden on providers. I can sympathize with the questions 
that they were going to get in a week or two when the school 
year started, and people came in--women came in and were 
questioning whether or not they should have the vaccine, and if 
they, in fact, knew they were pregnant, if the vaccine would be 
harmful.
    So it is so important to have this type of information that 
is literally just a phone call away when people are faced with 
making tough decisions. I do hope you will look on this 
legislation favorably. I think it is an important part of our--
of what we provide--the services that we provide, not just to 
our patients but our providers out there as well.
    Thank you, Mr. Chairman, for your indulgence. I will yield 
back the balance of my time.
    Mr. Pallone. Thank you. No, you went 2 minutes over, but 
that is OK. We have a lot of time today.
    The gentlewoman from Colorado, Ms. DeGette.
    Ms. DeGette. Mr. Chairman, I just want to thank you for 
having this hearing today, in particular on the two bills which 
I am the primary sponsor, the Pediatric Research Consortia 
Establishment Act, H.R. 758, and H.R. 1995, the Eliminating 
Disparities in Diabetes Prevention, Access, and Care Act. And I 
also want to thank you for bringing up Mr. Space's H.R. 6012 
Diabetes Screening Utilization bill. These are all important 
bills that we have been working hard all year to try to pass.
    I also want to ask unanimous consent to introduce two 
letters--for the record two letters, one on H.R. 1995 from the 
American Diabetes Association, and the other one on H.R. 758 
from the Federation of Pediatric Organizations.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Ms. DeGette. Thank you. And I guess I can retroactively 
yield 2 minutes of my time to Mr. Burgess, and with that, I 
will yield back.
    Mr. Pallone. Thank you. No, she wasn't serious.
    Next is--what about Doris? The gentleman from New York, Mr. 
Engel.
    Mr. Engel. Thank you very much, Mr. Chairman, and I stand 
behind everything that Dr. Burgess said. He and I have a bill 
which we are talking about today and will be voting on 
tomorrow, the Gestational Diabetes Act, known as the GEDI Act, 
which we sponsored together. I just want to, since I didn't 
make an opening statement, make a mini opening statement now 
and just say that 135,000 women in the U.S. are diagnosed with 
gestational diabetes each year, and it can occur in pregnant 
women who have never had diabetes before but who have had high 
blood sugar levels in pregnancy. And while gestational diabetes 
generally goes away after pregnancy, it can have significant 
health impacts upon both the mother and baby.
    In particular, women are at much higher risk of developing 
type 2 diabetes in the future, and their children are at higher 
risk of obesity and/or the onset of type 2 diabetes as adults. 
That is why we introduced this act, and the bill aims to lower 
the incidents of gestational diabetes and prevent women 
afflicted with this condition and their children from 
developing type 2 diabetes.
    We need to have a greater understanding on how to prevent 
and treat this condition. There is currently an insufficient 
system for monitoring cases of gestational diabetes to uncover 
trends and target at-risk populations. In addition, new 
therapies and interventions to detect, treat, and slow the 
incident of gestational diabetes need to be identified and our 
bill will help us accomplish these goals. I know Dr. Burgess 
mentioned that all the groups that support this legislation, I 
am going to mention them again, the American Diabetes 
Association, the American Association of Colleges of Pharmacy, 
American Association of Diabetes Educators, the American 
Medical Women's Association, the Association of Women's Health, 
Obstetric and Neonatal Nurses, and the Society for Women's 
Health Research.
    Mr. Chairman, if Dr. Burgess hadn't done it--I think he did 
as I was coming in the room--I would like to request unanimous 
consent that the letters of endorsement be entered into the 
record.
    Mr. Pallone. I believe they all have.
    Mr. Engel. Thank you. Let me ask Dr. Arias, based on what I 
have said, can you tell me what support and outreach programs 
are currently available to those with gestational diabetes, and 
also, is there currently a system in place to monitor cases of 
gestational diabetes?
    Ms. Arias. Monitoring gestational diabetes specifically 
would be a new activity for us. As I mentioned earlier, we do 
comprehensive diabetes prevention work, and in the context of 
that, if the issue gets raised then we devote whatever 
resources we may have in order to address the issue.
    Mr. Engel. What more can be done in these areas, in your 
opinion?
    Ms. Arias. At the risk of being repetitive, it is 
surveillance, and making sure that we are very clear about not 
only the extent of the problem, but where the problem seems to 
be most and where it is that we need to focus in order to be 
most effective in addressing the issue from a population-based 
perspective.
    Mr. Engel. Thank you. Let me ask you one final question. 
Can you speak to the unique differences between gestational 
diabetes and other forms of diabetes like type 2, and is there 
a way to determine if a woman is at high risk to get 
gestational diabetes?
    Ms. Arias. I am afraid I am not a subject matter expert, 
and that is information that then we can follow up and send 
you.
    Mr. Engel. OK. Can anybody else attempt to answer that at 
all? No? OK.
    Well, I hope--Mr. Chairman, I will yield back the balance 
of my time. I hope that the committee can tomorrow pass this. 
This is obviously not a partisan bill, it is a very bipartisan 
bill, and gestational diabetes doesn't happen with people 
belonging to one political party or another. It happens to 
Americans, and I think this is something whose time has come. 
We need to address this very serious issue.
    I yield back.
    Mr. Pallone. Thank you, Mr. Engel.
    The gentlewoman from California, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, for holding today's 
hearing. Before I begin, I would like to ask unanimous consent 
to submit these letters of support from the National Marrow 
Donor Program and the Aplasic Anemia and MDS International 
Foundation for the record.
    Mr. Pallone. Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Ms. Matsui. I am so pleased that two of the bills that are 
most important to me are included in this hearing. Together, 
H.R. 1230, the Bone Marrow Failure Disease Research and 
Treatment Act, and H.R. 6081, the Stem Cell Therapeutic and 
Research Reauthorization, represent holistic approach to combat 
bone marrow failure diseases. If enacted, they will address new 
critical areas for research, further awareness of the diseases 
in high incidences communities, and provide for a one-stop shop 
for adult stem cell treatment options.
    Dr. Tabak, one of the aspects that H.R. 1230, the Bone 
Marrow Failure Disease Research and Treatment Act, would 
provide for coordinated outreach and informational programs 
targeted to minority populations affected by these diseases, 
including information on treatment options and clinical trials 
research.
    Can you speak broadly about the challenges associated with 
ensuring minority participation in clinical trials?
    Dr. Tabak. Yes, thank you. We issue a 5-year strategic plan 
on health disparities which describes the agency's priorities 
for addressing minority health and health disparities. As part 
of this, the new institute, the National Institute of Minority 
Health and Health Disparities, has committed to ensuring 
greater representation and participation of racial and ethnic 
minority populations, as well as other health disparity 
populations in research activities. They have done this through 
the establishment of a bioethics research infrastructure 
initiative, which is a network of bioethics centers around the 
United States. Both academic and other non-profit entities with 
a history of research and training engagement with health 
disparity communities provides a perfect platform for this 
initiative. And through this initiative, the NIMHD has 
dedicated about $15 million in Recovery Act funds over the past 
2 years, '09 and '10.
    Ms. Matsui. Dr. Tabak, is it true that you--it is difficult 
getting minority participants in all sorts of clinical trials, 
and it is important to have research relevant to all groups.
    Dr. Tabak. It is very important to have research relevant 
to all groups.
    Ms. Matsui. OK. Dr. Brand, I appreciate your mentioning 
these bills in your testimony. You mentioned that there are 
6,000 people searching for a match bone marrow donor or cord 
blood unit at any time. Can you explain the relationship 
between the increased research and public education campaigns 
included in H.R. 1230, and on the potential future successes 
for the C.W. Beal Young Cell Transplant Program?
    Ms. Brand. H.R. 1230, the Acquired Bone Marrow Failure and 
Treatment Act, provides for research on acquired bone marrow 
diseases, encourages outreach, and directs the Agency for 
Healthcare Research and Quality to examine best practices 
regarding diagnosing and providing care to individuals with 
acquired bone marrow disease.
    To do this, the Secretary may rely partly on the Stem Cell 
Therapeutic Database, which is authorized by H.R. 6081, the 
Stem Cell Reauthorization. The C.W. Beal Young Cell 
Transplantation Program and the National Cord Blood Injury--
Inventory increase the number of transplants suitably matched 
to biologically unrelated donors, and supports the collection 
and storage of a genetically and ethically diverse inventory of 
high quality umbilical cord blood for transplantation.
    Additionally, the education outreach called for in H.R. 
1230 would help assist patients understand all their treatment 
options, including transplant, and help patients and physicians 
assist transplant as a treatment option early in the course of 
their disease. Optimal transplant outcomes are more likely to 
occur if the transplant is done before the patient's health has 
deteriorated significantly.
    Ms. Matsui. And Dr. Brand, one way to measure the success 
of the C.W. Beal Young Cell Transplantation Program is through 
the number of transplants performed. Can you tell us how the 
program has performed in this manner during the last 5 years in 
terms of the actual number of transplants, as well as the 
actual performance when compared to the part goals?
    Ms. Brand. Cord blood stem cell transplants exceeded goals 
of 4,500 in 2010, and we have reached over 5,000. Transplants 
for minority patients are up sharply. We exceeded our goal of 
636 in fiscal year 2010, and we will facilitate 840 by the end 
of the fiscal year. I can provide you a 5-year summary for the 
record, but we have exceeded our targets every year.
    Ms. Matsui. Thank you. One more question. Another important 
indicator describing how the program operates is survival rates 
over time. How are the survival rates over time changed for the 
transplants that the program facilitates? How do they compare 
to transplants for related donors?
    Ms. Brand. Survival for standard risk patients now is at 70 
percent at one year after transplant, compared to 50 percent in 
2000 and 42 percent in 1988. Standard risk patient survival 
after unrelated donor transplants now matches that for sibling 
donor transplants.
    Ms. Matsui. OK, thank you.
    I yield back the balance of my time.
    Mr. Pallone. Thank you. Gentlewoman from Illinois, Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I just have a 
couple of questions.
    Ms. Arias, I wanted to ask you, there are--as you know, 
there are 46 million people who suffer from arthritis, but in 
2008, only 12 states received funding for programs to prevent 
and control arthritis. How were these 12 states determined? I 
understand that 40 states applied, but only 12 were funded.
    Ms. Arias. Yes, that is correct. We only had enough funding 
for 12 states, and those were chosen on the base of a 
competitive process, so it was an evaluation of the 
applications and then the highest--strongest applications until 
we ran out of money essentially were supported.
    Ms. Schakowsky. But not all--would you say that the others 
were not worthy, necessarily, or----
    Ms. Arias. No, no, not necessarily. Essentially we had a 
limited pot of funds and could not fund anymore than the 12 if 
we had wanted to. There were other applications that were 
worthy of funding and were recommended for funding, however 
there weren't any funds available for them.
    Ms. Schakowsky. Well, along the same lines, Dr. Tabak--did 
I say that right? OK. In your testimony, you described the 
process that NIH uses to set priorities, and you say that ``The 
rigor of this process is so competitive and the number of 
applications is so large that to date, fewer than one in five 
research proposals receives NIH funding.'' So again, I want to 
ask you, does this mean that only one in five is worth 
pursuing, or again, is it funding limits prevent the approval 
of research proposals that really do have the potential to be 
worthwhile?
    Dr. Tabak. The latter. We certainly, if we had the 
resources, would be very proud to support additional 
applications that we receive.
    Ms. Schakowsky. OK, thank you. That is why I look forward 
to the markup on H.R. 2010 that deals with arthritis, which 
affects so many Americans, and see if we can't get some of 
these other worthy projects, and more particularly, we are 
short of pediatric rheumatologists, to try to get more of those 
to address this problem.
    Thank you, and I yield back.
    Mr. Pallone. Thank you. I think all members have had a 
chance to ask questions, unless anyone else--well, let me thank 
you, first of all, for being here. We appreciate your input on 
this and as you know, we plan to move to the markup tomorrow so 
it was very useful to have you here today. Thank you very much.
    We--I don't know if anybody said they have any written 
questions they were going to send you, but they still could--
you still could get some written questions from members, so we 
would ask you to get back to us quickly.
    Anyone else? If not, without objection, the meeting of the 
subcommittee is adjourned.
    [Whereupon, at 5:27 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T8131A.026
    
    [GRAPHIC] [TIFF OMITTED] T8131A.027
    
    [GRAPHIC] [TIFF OMITTED] T8131A.028
    
    [GRAPHIC] [TIFF OMITTED] T8131A.029
    
    [GRAPHIC] [TIFF OMITTED] T8131A.030
    
    [GRAPHIC] [TIFF OMITTED] T8131A.031
    
    [GRAPHIC] [TIFF OMITTED] T8131A.032
    
    [GRAPHIC] [TIFF OMITTED] T8131A.033
    
    [GRAPHIC] [TIFF OMITTED] T8131A.034
    
    [GRAPHIC] [TIFF OMITTED] T8131A.035
    
    [GRAPHIC] [TIFF OMITTED] T8131A.036
    
    [GRAPHIC] [TIFF OMITTED] T8131A.037
    
    [GRAPHIC] [TIFF OMITTED] T8131A.038
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
